Before the Committee on Transportation and Infrastructure
United States House of Representatives

For Release on Delivery
Expected at
10:00 a.m. EDT
                          Actions Needed To
Thursday
April 3, 2008
                          Strengthen FAA’s Safety
                          Oversight and Use of
CC-2008-046



                          Partnership Programs


                          Statement of
                          The Honorable Calvin L. Scovel III
                          Inspector General
                          U.S. Department of Transportation
Mr. Chairman, Ranking Member Mica, and Members of the Committee:

We appreciate the opportunity to testify today on the Federal Aviation
Administration’s (FAA) oversight of airlines and the effectiveness of the Agency’s
regulatory partnership programs. As this Committee is aware, safety is a shared
responsibility among FAA, aircraft manufacturers, and airlines. Together, all three
form a series of overlapping controls to keep the system safe. FAA safety inspectors
are on the front lines and play a critical role by ensuring compliance with FAA rules
and regulations.

At the request of this Committee, we are reviewing FAA’s handling of whistleblower
concerns regarding Southwest Airlines’ (SWA) failure to follow a critical FAA
airworthiness directive (AD). Our testimony today is based on our ongoing work and
prior audits of related issues at other carriers. Today, we will note breakdowns in
three areas of FAA oversight that contributed to this event and illustrate the potential
for system-wide weaknesses. Specifically, FAA’s: (1) partnership programs with air
carriers, (2) national program for risk-based oversight, and (3) internal reviews and
handling of employees who report safety concerns. We have identified key changes
that FAA must make to its oversight programs to address these areas. Before I
discuss these issues further, it is important to note the events that led to today’s
hearing.

The FAA directive 1 in this case required SWA to inspect the fuselages of its Boeing
737s for potential cracks. FAA issued this directive after an Aloha Airlines 737 lost a
major portion of its hull while in flight at 24,000 feet in 1988, resulting in one fatality
and multiple injuries. According to FAA, when an air carrier determines that it has
not implemented an AD, it is required to immediately ground all non-compliant
aircraft. FAA inspectors share this responsibility—if an inspector becomes aware that
an air carrier has violated the terms of an AD, the inspector is required to ensure that
the aircraft are grounded.

To meet this requirement, air carriers need a system to help them perform repetitive
inspections of aircraft fuselages in a timely manner. However, we found that SWA
did not have an adequate system to ensure it completed these inspections. As a result,
SWA operated 46 aircraft that were not inspected for fuselage cracks. These aircraft
flew in violation of the AD on over 60,000 flights for up to 9 months (see exhibit A).
We estimate that these aircraft carried 6 million passengers during this period.

According to SWA, it discovered it had violated this directive on March 14, 2007.
SWA notified an FAA principal maintenance inspector (PMI) the following day.
However, the inspector did not direct SWA to ground the affected planes, and SWA

1
    FAA Airworthiness Directive 2004-18-06 requires that Boeing 737s (series 200, 300, 400, and 500) be inspected for
    fuselage cracks every 4,500 cycles (1 cycle equals 1 take-off and landing) after they reach 35,000 cycles.


                                                                                                                   1
               continued to operate them on 1,451 flights for 9 more days, carrying an estimated
               145,000 passengers.

               The PMI permitted—and encouraged—SWA to formally self-disclose the AD
               violation through its Voluntary Disclosure Reporting Program (VDRP), which would
               allow the airline to avoid any penalties. FAA accepted the self-disclosure, even
               though it had already accepted multiple disclosures on AD violations—this should
               have prompted concerns regarding whether underlying problems were corrected.

               Once it formally self-disclosed the violation on March 19, SWA stated that it was in
               compliance with the AD, meaning it had inspected or grounded all affected aircraft.
               However, two FAA inspectors (the whistleblowers in this case) reported that their
               supervisor, the PMI, had knowingly permitted SWA to continue flying the identified
               aircraft even after SWA’s self-disclosure. SWA officials confirmed this and stated
               that the PMI gave them verbal permission to continue flying the aircraft.

               During our review, we found that—after SWA self-disclosed the overflight—several
               of these aircraft flew into airports multiple times where they could have received the
               required inspections. When SWA finally inspected the aircraft, it found fuselage
               cracks in five of them. The AD specifies that these cracks could potentially lead to
               fuselage separation and rapid aircraft depressurization if left in disrepair.

               While these critical safety lapses indicate problems with SWA’s ability to comply
               with safety directives, they are symptomatic of much deeper problems with FAA’s
               oversight (the timeline below shows the events of the SWA disclosure and FAA
               actions).

                              Figure 1. Timeline of SWA Disclosure and FAA Actions
                     Affected planes continue
                     operating on 1,451 flights
                                                                                         SHMD reports that
                         SWA rep.            SWA                                         SWA stated PMI
                                                                                         never ordered             2nd review: PMI
                         notifies PMI        self-       SWA states it has                                         admits he should
                         that 100            discloses   completed                       planes grounded
          SWA                                                                            and PMI admitted he       have grounded
                         planes may          that 47*    inspections for                                           planes but chose to
          discovers it                                   affected planes—                shouldn’t have
                         have                planes                                                                avoid negative affect
          overflew AD                                    5 had cracks                    encouraged self-
                         overflown           overflew                                                              on FAA
                                                                                         disclosure                                Sparks Feb ’08 Committee
                                                                                                                                   request to OIG
SWA/External
FAA                       14 15         19    22 23        16    1                           12                     18        2                    16

FAA Region/Office                 Mar                     Apr        May        Jun           Jul      Aug       Sept             Oct               Nov
Overseeing SWA
                                                   Independent
                                                                                                               Region              FAA initiates
                     During routine                review concludes        Region requests
                                                                                                               requests 2nd        enforcement
                     inspection at Chicago,        SWA operated 47         FAA’s SHMD**
                                                                                                               SHMD review          action
                     whistleblower sees            planes in known         to review SWA
                     cracks on 1 of the            unairworthy             self-disclosure
                     reported planes—it had        condition and that
                     flown the day before          PMI condoned this.
                                                   No action taken
    * SWA later determined only 46                 against PMI                                      2007
      violated AD.
    **Security and Hazardous Materials
      Division



                                                                                                                                                          2
We found that FAA’s Southwest inspection office developed an overly
collaborative relationship with the air carrier, which allowed repeated self-
disclosures of AD violations through its partnership program. Partnership
programs are intended to facilitate collaboration between FAA and air carriers to
identify and address safety issues. Yet, FAA allowed SWA to repeatedly self-disclose
AD violations without ensuring that SWA had developed a comprehensive solution
for reported safety problems—which is required for FAA to accept the disclosure and
absolve the carrier of any penalty.

However, SWA’s proposed solutions, which FAA has repeatedly accepted, have
failed to solve AD compliance issues, as it has violated four different ADs eight times
since December 2006, including five in 2008. FAA’s oversight in this case appears to
allow, rather than mitigate, recurring safety violations.

FAA maintains that disclosure programs are valuable, as they can help to identify and
correct safety issues that might not otherwise be obtainable. However, we are
concerned that FAA relies too heavily on self-disclosures and promotes a pattern of
excessive leniency at the expense of effective oversight and appropriate enforcement.
Further, a partnership program that does not ensure carriers correct underlying
problems is less likely to achieve safety benefits.

Our ongoing work at another carrier has identified concerns with employees using
disclosures to avoid penalties for safety violations. FAA must take steps to maintain
the safety objective of these programs by actively discouraging improper relationships
between inspection offices and carriers so that these programs do not lapse into an
easy amnesty path for perpetual safety violators.

We also found that the events of SWA demonstrate weaknesses in FAA’s
national program for risk-based oversight—the Air Transportation Oversight
System (ATOS). This allowed AD compliance issues in SWA’s maintenance
program to go undetected for several years. As early as 2003, one of the
whistleblowers expressed concerns to FAA about SWA’s compliance with ADs. In
2006, he began urging FAA to conduct system-wide reviews, but FAA did not begin
these reviews until after the details of the March 2007 disclosure became public.

In fact, FAA inspectors had not reviewed SWA’s system for compliance with ADs
since 1999. At the time of the SWA disclosure, 21 key inspections were overdue for
at least 5 years. As of March 25, 2008, five of these were overdue for nearly 8 years.

We have previously identified system-wide problems with ATOS. For example, in
2002, 2 we found inconsistent inspection methods across FAA field offices for various
carriers. As a result, FAA inspectors were confused over how to conduct ATOS
2
    OIG Report Number AV-2002-088, “Air Transportation Oversight System,” April 8, 2002. OIG reports and testimonies
    are available on our website: www.oig.dot.gov.


                                                                                                                  3
inspections and assess risks. In 2005, 3 we found that inspectors did not complete
26 percent of planned ATOS inspections—half of these were in identified risk areas.
We recommended, among other things, that FAA strengthen its national oversight and
accountability to ensure consistent and timely ATOS inspections. However, FAA still
has not fully addressed our recommendations.

Further, our ongoing work and 2005 audit 4 at Northwest Airlines have identified
weaknesses in FAA’s processes for conducting internal reviews, ensuring
corrective actions, and handling employees who report safety concerns. In the
SWA case, FAA’s internal reviews found as early as April 2007 that the PMI was
complicit in allowing SWA to continue flying aircraft in violation of the AD. Yet,
FAA did not attempt to determine the root cause of the safety issue, nor initiate
enforcement action against the carrier until November 2007. At Northwest, FAA’s
reviews of an inspector’s safety concerns were limited and overlooked key findings
identified by other inspectors. Although some of the inspector’s safety concerns were
valid, FAA informed him that all of his concerns lacked merit.

We also have concerns regarding FAA’s failure to protect employees who report
safety issues from retaliation by other FAA employees. For example, in the SWA
case, after one whistleblower voiced his concerns to FAA, an anonymous hotline
complaint was lodged against him. According to the inspection office manager, the
PMI indicated that a SWA representative submitted the complaint. The complaint
was non-specific and never substantiated, but the whistleblower was removed from
his oversight duties for 5 months while he was being investigated. Yet, FAA did not
suspend other inspectors who were subjects of similar complaints, including the PMI,
who admitted that he allowed SWA to continue flying in violation of the AD.

Our work at Northwest Airlines found the same problem with FAA’s handling of the
inspector who reported safety concerns. As with the inspector in the SWA case, FAA
managers reassigned an experienced inspector to office duties, after a complaint from
the airline, and restricted him from performing oversight on the carrier’s premises.
Both the SWA and Northwest cases demonstrate that FAA must pursue a more
reliable internal review process and protect employees that bring important safety
issues to light.

Recently, FAA announced several actions to address the SWA safety directive
violation. These include initiating a review of AD compliance at SWA and other air
carriers. FAA also proposed to fine SWA over $10 million.




3
    OIG Report Number AV-2005-062, “FAA Safety Oversight of an Air Carrier Industry in Transition,” June 3, 2005.
4
    OIG Report Number AV-2007-080, “FAA’s Actions Taken To Address Allegations of Unsafe Maintenance Practices at
    Northwest Airlines,” September 28, 2007.


                                                                                                               4
While FAA’s actions are necessary, albeit long overdue, the issues we have
identified will require immediate and comprehensive changes in FAA’s air
carrier oversight programs. These actions include the following:

 • Establishing an independent organization to investigate safety issues identified by
   its employees.
 • Periodically rotating supervisory inspectors to ensure reliable and objective air
   carrier oversight.
 • Revising its VDRP guidance to require inspectors to (a) verify that air carriers take
   comprehensive actions to correct the underlying causes of violations identified
   through self-disclosure programs and (b) evaluate, before accepting a new report
   of a previously disclosed violation, whether the carrier developed and
   implemented a comprehensive solution.
 • Implementing a process for secondary review of self-disclosures before they are
   accepted and closed—acceptance should not rest solely with one inspector.
 • Revising its post-employment guidance to require a “cooling-off” period when an
   FAA inspector is hired at an air carrier that he or she previously inspected.
 • Implementing a process to track field office inspections and alert the local,
   regional, and Headquarters offices to overdue inspections.
 • Developing a national review team that conducts periodic reviews of FAA’s
   oversight of air carriers.

I would now like to discuss these issues in further detail.




                                                                                      5
Repeated Acceptance of Self-Disclosures Involving AD
Violations Demonstrates Problems With FAA’s
Implementation of Partnership Programs
Safety partnership programs, such as the Voluntary Disclosure Reporting Program
used by SWA to report the AD non-compliance, are intended to permit FAA and air
carriers to collaboratively identify and address safety issues. The Aviation Safety
Action Program (ASAP) is another partnership program that FAA uses to obtain
safety data from aviation employees. We are reviewing FAA’s implementation of
this program at various carriers and have identified problems that FAA will need to
address to strengthen this program. Such programs, if properly implemented, can add
value by identifying issues that might not otherwise come to light.

A fundamental principle of these partnership programs is that the company or person
submitting the disclosure receives immunity from enforcement action. However,
FAA guidance states that, in order for an inspector to accept a self-disclosure from a
carrier, the carrier must propose and implement comprehensive fixes to correct the
root causes of identified safety problems and prevent recurrence. We support the
concept of self-disclosure programs and recognize the challenge they present to
FAA—carefully balancing a collaborative relationship with effective oversight and
appropriate enforcement actions.

In this case, we found that FAA’s inspection office for SWA (the Certificate
Management Office, or CMO) developed an overly collaborative relationship with the
air carrier, which allowed repeated self-disclosures of AD violations. FAA accepted
these without requiring the carrier to correct the underlying deficiencies in its AD
management program. These actions contradict FAA’s guidance and illustrate that a
partnership program that does not ensure underlying problems are corrected is less
likely to achieve the objective of improving the margin of safety.

As shown in figure 2, we found that SWA had violated and self-disclosed at least four
different ADs eight times since December 2006. Data were not readily available to us
to analyze self-disclosures before December 2006.

On March 20, 2008—less than 2 weeks ago and over a year after SWA disclosed the
AD overflight—SWA discovered that another aircraft had violated the same AD
(2004-18-06) that it reported as overflown in March 2007. SWA discovered this
because we requested that it validate its previously provided information on the
overflight. This discovery further demonstrates deficiencies in SWA’s system for
monitoring inspection requirements. It also illustrates that FAA’s review of the
March 2007 AD violation was incomplete.




                                                                                    6
                       Figure 2. Eight SWA Aging Aircraft AD Violations
                                                                                       AD-90-25-01:
                                                  AD-2004-18-06:                       Corrosion
                              AD-2002-07-08:      Upper/lower                          prevention;
                              Windows & upper     fuselage panels.      AD-2005-       inspections to cover
                              fuselage. 1 plane   46 planes in          07-19:         entire plane. 1         AD-2004-18-06:
                              flew in violation   violation on          Cargo door.    plane in violation on   Upper/lower
AD-2005-07-19: Cargo
                              for 27 months.      61,224 flights for    27 planes in   1,378 flights           fuselage panels.
door. 1 plane in violation
                                                  9 mos.                violation                              1 plane in
on 30 flights
                                                                                                               violation on 889
                                                                                                               flights.
                                   12/7   1/29 3/19                        2/21 2/22 3/12    3/20
                       2006                            2007                                 2008
     *Dates mark submission to FAA
                                                            AD-2004-18-06:
                                                            Upper/lower                AD-2002-07-08:
 All of the above mark violations of ADs                    fuselage panels. 3         Windows & upper
 requiring repetitive inspections. All but one              planes in violation on     fuselage. 38
 (AD-90-25-01) required fatigue crack checks                3,922 flights.             planes in
 on various parts of an aircraft.                                                      violation.




FAA accepted five of the eight violations shown above into the VDRP—including the
March 19, 2007, violation.       FAA did recently reject two self-disclosures
(February 22, 2008, and March 12, 2008) since they were related to the highly
publicized AD on fuselage cracks that it had already accepted. FAA has not provided
information on how it will address the most recent AD violation (see exhibit B).

In addition to the ADs referenced above, on March 20, 2007, the PMI accepted a self-
disclosure from SWA indicating the carrier overflew a maintenance inspection on the
stand-by rudder system for 70 Boeing 737 aircraft. This overflight is yet another
example of the critical need for FAA to ensure that SWA corrects shortcomings in its
maintenance program.

FAA Did Not Follow Its Own Criteria for Self-Disclosures
FAA requires air carriers to have a system in place to ensure compliance with ADs.
Repeated AD violations demonstrated that, at best, SWA needs to strengthen its
maintenance system to meet FAA requirements and provide reasonable assurance of
compliance with FAA safety directives. Even though FAA requires that self-
disclosures be accompanied by a plan to correct the root cause of the problem, it
accepted proposed actions by SWA that clearly did not demonstrate this capability.

Under the VDRP, a carrier—not individual employees—can self-disclose safety
violations. When a carrier reports a violation, FAA addresses it with an
administrative action, such as a Letter of Correction, instead of a civil penalty.

 • For a violation to be accepted in the VDRP, it must not appear intentional or
   indicate a lack of air carrier qualifications.
 • Further, upon finding the violation, the air carrier must immediately terminate the
   improper conduct and notify FAA—before FAA learns about it by other means.
   Specifically, air carrier representatives provide preliminary information on the


                                                                                                                                  7
      apparent violation and direct the report to the applicable FAA principal inspector
      (e.g., PMI) for review.
    • Most importantly, the carrier must also develop a comprehensive solution to the
      problem, schedule of implementation, and a follow-up audit.
    • The principal inspector can accept the report and close it without management
      approval.

We found several areas in which FAA did not adhere to these criteria:

    • FAA encouraged and formally accepted the March 19, 2007, self-disclosure,
      even though SWA did not immediately terminate the improper conduct.
      While SWA indicated in the self-disclosure that it ceased the non-compliance (i.e.,
      grounded the affected aircraft), it actually continued flying the affected aircraft as
      late as March 23, 2007, without the fuselage skin inspections.

      In addition, FAA did not take steps to make sure SWA had completed all required
      inspections, even after it determined that SWA did not ground the aircraft. SWA
      operates 141 aircraft that would be impacted by this AD. Initially, SWA reported
      that 100 aircraft had overflown the AD and then changed the number to
      47 5 aircraft when it submitted the formal voluntary disclosure. Despite this,
      FAA’s Certificate Management Office did not obtain the tail numbers of the
      reported aircraft until November 2007—8 months after the self-disclosure.

      Without the specific tail numbers, FAA had no way to determine if SWA had
      reported all affected aircraft and, ultimately, whether all aircraft were in
      compliance with the AD. Yet, the PMI accepted the report and closed it a few
      weeks later.

    • The PMI should have immediately grounded the aircraft and notified his
      management of the seriousness of the situation. Even after the PMI knew that
      the carrier had not ceased the violating conduct, he did not take actions to ground
      the affected aircraft. The CMO manager was not aware of the significance of the
      violation because the program does not require management review of the report
      at any point in the process.

      On March 22, 2007, while at Chicago-Midway Airport, one of the whistleblowers
      saw a mechanic repairing a crack on an aircraft that he believed had been reported
      in the disclosure. He went to the FAA inspector in charge of overseeing that
      particular fleet (Boeing 737-300). The inspector confirmed that the aircraft should
      have been grounded after SWA’s self-disclosure but said that the PMI had given
      SWA permission to keep flying those aircraft.

5
    SWA later determined that only 46 aircraft overflew this AD.


                                                                                          8
      In fact, the PMI subsequently confirmed that he knew that SWA’s statements on
      the self-disclosure that the aircraft had been grounded were inaccurate, and yet he
      allowed SWA to continue flying the aircraft. Separate FAA inspector guidance 6
      regarding grounding an operator’s aircraft states:

             An inspector who becomes aware of an unsafe condition in an aircraft that is
             being operated or about to be operated and fails to act…is in dereliction of
             duty. This duty is placed specifically by Congress upon the inspector rather
             than on the Administrator. If the inspector, after due consideration, still has
             any doubts regarding whether or not to ground the aircraft, the grounding
             notice should be issued.

      FAA needs to implement a process for secondary review of self-disclosures before
      they are accepted and closed—acceptance should not rest solely with one
      inspector.
    • FAA accepted SWA’s proposed “comprehensive fix”; yet, this solution did
      not address the root cause of the problem. In its disclosure, SWA stated its
      solution for the violation as follows: “all AD compliance personnel have been
      counseled on the importance of performing adequate reviews of AD documents.”
      SWA also stated it planned to add another employee to the AD compliance group
      to ensure adequate reviews. The PMI accepted SWA’s proposed solution but did
      not indicate that he had reviewed the solution before accepting it (April 2007).

      FAA should have questioned how counseling personnel and adding one employee
      would mitigate system-wide problems.

    • FAA accepted assertions in SWA’s follow-up audit that its comprehensive fix
      “had proven” to be effective in preventing recurrence; but more violations
      occurred. In the audit, SWA cited “individual human error” as the reason for the
      missed fuselage inspections required by the AD. However, SWA’s solution did
      not correct the problem, as SWA has reported AD violations five times since FAA
      accepted the proposed solution. The violations include missing the same
      inspections (overflying the same AD) on three more aircraft on February 22, 2008.
      Further, SWA missed inspections for a different but related AD on fuselage cracks
      on March 12, 2008. This time, 38 aircraft overflew the directive.

      On March 20, 2008, SWA determined that another aircraft had overflown the
      same AD that it reported as overflown in March 2007. SWA discovered this
      because we requested that it validate its previously provided information on the
      overflight. Had FAA attempted to validate the information provide by SWA, it
      would have identified this violation over a year ago.

6
    8300.10 CHG 7, “Ground Operator Aircraft,” July 17, 1992.


                                                                                          9
FAA’s guidance for self-disclosure programs should require its inspectors to fully
review the carrier’s proposed solution for the reported problem and document that
review. FAA should also require that the official who approves and closes the VDRP
is not the same official that accepted it from the air carrier. This would help to ensure
that the relationship between the carrier and the inspection office does not hamper
safety oversight, as happened in this case.

Breakdowns in FAA’s Oversight of Its Self-Disclosure Program Point to
an Overly Collaborative Relationship With SWA
Partnership programs, when properly implemented, can be a valuable safety tool.
However, the success of these programs depends on the integrity of the people using
them. In the SWA case, the actions of the CMO tipped heavily in favor of
collaboration and partnership rather than oversight and enforcement. Figure 3 shows
a timeline of key events that illustrate concerns about FAA’s relationship with the air
carrier. According to the whistleblowers, the favoritism that this inspection office
tended to show toward SWA ultimately divided the entire office into two camps. The
division in the office became so bad it affected inspectors’ abilities to perform their
jobs.

          Figure 3. Key Reviews and Events at CMO for SWA Showing
                       Overly Collaborative Relationship
     2005                                                      2006                                  2007
                                  Oct           Nov      Dec                   Jun          Sep                  Apr




                                                                         Review of office
Review finds 1          Office manager                                   environment
questionable self                                Review finds improper   reports “tense”    Former FAA inspector
                        requests Region to                                                                             Follow-up review of
disclosure and                                   carrier notifications   relationship       of SWA maintenance
                        review his finding                                                                             office environment
identifies conflicts                             and concludes           between PMI and    becomes a SWA
                        that the PMI allowed                                                                           reports “worsened”
between PMI and                                  inspectors were         manager.           manager—manages
                        SWA to change its                                                                              condition. Review also
manager that have                                directed to lessen                         AD and self-disclosure
                        maintenance                                                                                    finds there is an effort
“detrimental” impact                             penalties against                          programs/liaisons
                        program without FAA                                                                            by the PMI to lessen
on office. No actions                            SWA. No actions                            between FAA and
                        approval for at least                                                                          enforcement actions.
taken.                                           taken.                                     SWA.
                        2 years.



Concerns that the PMI was too close to the air carrier surfaced as early as 2005.

 • In September 2005, FAA’s Southwest Regional Manager requested an internal
   review into allegations that the PMI was inappropriately accepting self-disclosures
   from the carrier. The investigation was prompted by the CMO manager’s
   concerns that an FAA inspector found a violation and that the PMI still allowed
   the carrier to submit it as a self-disclosure—a clear violation of FAA’s criteria for
   self-disclosures, which require that FAA have no prior knowledge of the violation.

    The report for this review, issued in October 2005, concluded that, while there was
    one questionable self-disclosure, there was no systemic problem with self-



                                                                                                                                            10
 disclosures at this office. This review also noted several issues between the PMI
 and office manager that had a “detrimental” impact on the inspection office.

• In November 2005, the CMO manager requested assistance from FAA’s
  Southwest Regional Manager to conduct an independent, in-depth review of the
  PMI’s handling of SWA manual approvals. Specifically, the CMO manager
  determined that the PMI had permitted SWA to make changes to its maintenance
  program without FAA approval for at least 2 years. The manager expressed
  concerns that a possible safety risk existed. There is no evidence that the Region
  assisted the CMO manager in this effort.

• In December 2005, the CMO manager requested a second independent review of
  air carrier notifications issued by his office (this review was conducted by an FAA
  inspector from another inspection office within the FAA Southwest Region). This
  review found that the PMI at the SWA office had issued five carrier notifications
  that should have been issued as enforcement actions. A carrier notification, or
  Letter of Concern, merely notes or documents a non-regulatory finding to a
  carrier—it does not require corrective action and is not tracked to ensure the
  problem was resolved. We found no evidence that FAA took any action to
  address these findings.

• In June 2006, FAA’s Southwest Regional Office requested that the Work
  Environment Advisory Team review reasons for ongoing personality conflicts that
  appeared to be adversely affecting the effectiveness of the office. The review
  team found that there was a tense relationship between the CMO manager and the
  PMI. One employee indicated that “SWA was using these relationship tensions to
  its advantage.” The team recommended that the CMO manager develop an action
  plan to correct these problems and that the managers participate in team building
  exercises. The CMO manager subsequently developed an action plan, but since
  the problems within the office continued, the action plan was ineffective.

• In September 2006, the appearance of impropriety between the air carrier and
  FAA resurfaced when a former FAA inspector—who was responsible for
  overseeing SWA maintenance operations—went to work for SWA as its
  Regulatory Compliance Manager. When this employee worked for FAA, he
  reported directly to the PMI.

 The employee was able to transition from being an FAA inspector to a SWA
 manager in just 2 weeks. In his new job, he serves as the liaison between the
 carrier and FAA and manages Southwest’s AD Compliance Program and its
 Voluntary Disclosure Reporting Program.              FAA should revise its post-
 employment guidance to require a “cooling off” period when an FAA inspector is
 hired at an air carrier that he or she previously inspected.



                                                                                  11
 • In April 2007, FAA’s Southwest Regional Office requested that the Work
   Environment Advisory Team conduct a follow-up review to determine if the office
   environment had improved. The team determined that the environment had
   actually worsened, in part, because of concerns related to the PMI’s handling of a
   self-disclosure. Specifically, the report stated “there was an effort by the PMI to
   minimize enforcement initiatives” in favor of pursuing collaborative solutions
   with the air carrier.

Had FAA taken timely action to address the results of these reviews, it may have
realized that the relationship between its inspection office and SWA was adversely
affecting safety oversight—long before the AD overflight occurred. We have seen
problems with FAA’s implementation of other partnership programs, which if not
corrected, could put the benefits of such programs in jeopardy.

Problems With Other FAA Partnership Programs
As part of an ongoing review of a hotline complaint from an FAA inspector for
Continental Airlines, we identified problems with FAA’s implementation of the
Aviation Safety Action Program. ASAP is a joint FAA and industry program
intended to generate safety information through voluntary disclosure that may not be
otherwise obtainable. The program allows individual aviation employees—not the air
carrier—to disclose possible safety violations to air carriers and FAA, without fear
that the information will be used to take enforcement or disciplinary action against
them.

The FAA inspector who submitted the complaint was concerned because a fatal
accident was accepted into an ASAP program. In this incident, a mechanic was
ingested into an engine as pilots performed an engine maintenance procedure. The
pilots then self-disclosed the accident through ASAP.

The complainant believed that the pilots acted carelessly and questioned whether a
fatal accident should be included in ASAP. A fatal accident is investigated by the
National Transportation Safety Board, and the results of that investigation would be
available to FAA. The complainant asserted that this should render the incident
ineligible for ASAP, since its acceptance would contradict the program’s intent—
obtaining voluntarily reported safety information that would not be otherwise
obtainable. We agree but found that FAA’s current guidance on ASAP does not
specifically prohibit fatal accidents from being accepted into the program. We will
report the results of our review later this year.

We are not advocating a return to past practices where FAA relied primarily on
penalties and fines when airlines or aviation employees commit safety violations.
FAA believes these programs are important in forming valuable collaborative
relationships with air carriers. Used properly, these programs can indeed be important
tools for FAA and the aviation industry. However, safety partnership programs must

                                                                                   12
be balanced with a strong commitment to oversight. FAA must ensure these
programs do not lapse into automatic amnesty for violators or become influenced by
improper relationships that may exist between an FAA inspection office and an air
carrier.

Multiple Missed ATOS Inspections at SWA Point to
Longstanding Weaknesses in FAA’s National Oversight
FAA oversight lapses at the local and national level allowed weaknesses in SWA’s
maintenance program to go undetected for years. Specifically, FAA did not ensure
that its inspectors carried out critical safety inspections required by FAA’s risk-based
oversight system, ATOS. ATOS inspectors should examine airlines’ systems for
ensuring compliance with ADs every 5 years; yet we found that FAA inspectors had
not examined SWA’s system since 1999. We have always supported the concept of
risk-based oversight as the only way FAA will be able to effectively oversee a large
and rapidly changing aviation industry. However, this case and our work at other
carriers show that FAA still needs to improve its management of ATOS—which we
called for in 2002 and again in 2005.

A pattern of events dating back to 2003 should have raised concerns at the CMO with
FAA’s oversight approach, particularly with respect to AD compliance. For example,
in 2003, one of the whistleblowers in the SWA case identified problems with how
SWA handled compliance with safety directives for aircraft engines. However, his
efforts to undertake a systematic, fleet-wide review of how the airline managed
compliance with safety directives were blocked by his supervisor, the PMI.

At the time of the SWA disclosure, the CMO responsible for overseeing SWA had
21 key maintenance-related ATOS inspections overdue for at least 5 years (see
table 1).




                                                                                     13
Table 1. Safety Inspection Activity - October 1, 2000 to March 15, 2007
(Note: 21 inspections not completed as of March 15, 2007—the date that SWA verbally
notified FAA of potential AD overflight.
  No.                         Element                     Date of Last    Date Inspection      No. of Months
                                                          Inspection*        Was Due           Past Due as of
                                                                                               March 15, 2007

   1     AD Management                                    10/1/1999**        9/30/2004              90
   2     General Maintenance Manual/Equivalent               6/4/01            6/3/06               69
   3     Continuous Analysis and Surveillance (CAS)        11/23/01          11/22/06               64
   4     Engineering/Major Repairs and Alterations          1/18/02           1/17/07               62
   5     Maintenance Log/Recording Requirements             1/25/02           1/24/07               62
   6     Reliability Program                                 2/1/02           1/31/07               61
   7     Airworthiness Release/Logbook Entry                 3/4/02            3/3/07               60
   8     RII Training Requirements                            none            9/30/05               80
   9     Appropriate Operational Equipment                    none            9/30/05               80
  10     Major Repairs and Alterations Records                none            9/30/05               80
  11     Maintenance Facility/Main Base                       none            9/30/05               80
  12     Weight and Balance                                   none            9/30/05               80
  13     Manual Currency                                      none            9/30/05               80
  14     Distribution (Manuals)                               none            9/30/05               80
  15     Availability (Manuals)                               none            9/30/05               80
  16     Supplemental Operations Manual Requirements          none            9/30/05               80
  17     Content Consistency Across Manual                    none            9/30/05               80
  18     Maintenance Certificate Requirements                 none            9/30/05               80
  19     Privileges Airframe and Powerplant                   none            9/30/05               80
  20     RVSM Authorization                                   none            9/30/05               80
  21     Director of Safety                                   none            9/30/05               80
 Source: FAA’s database for ATOS
 Inspection is considered overdue if not completed within 5 years from last inspection date.
 *If no date was available, then October 1, 2000, was used to determine inspection status.
 **Actual month/day unknown

While FAA has subsequently completed some of these inspections, as of
March 25, 2008, 5 of these 21 inspections were still incomplete and overdue for
nearly 8 years.

ATOS is designed to focus inspection activities on high-risk areas. We found that
inspectors were performing inspections on areas with little or no risk, such as the
carrier’s system for distributing inspection manuals. Inspections should prioritize
high-risk areas, such as the systems SWA uses to ensure it complies with ADs or to
monitor the effectiveness of its maintenance programs.

The fact that FAA Headquarters did not know that its inspection office for SWA had
not completed required ATOS inspections underscores weaknesses we previously
reported about ATOS. Since introducing the system nearly 10 years ago, FAA has
made significant strides in its implementation; however, our work has shown that a


                                                                                                                14
range of actions is still needed to improve ATOS, particularly in terms of national
oversight of the program.

In April 2002, we reviewed nine air carriers and reported that FAA needed to
improve how it holds field managers accountable for consistently implementing
ATOS. Although FAA had an ATOS program office, the office merely provided
administrative support and general guidance for field offices. Consequently, field
offices were left on their own to implement ATOS, and this led to inconsistent ATOS
inspection methods across FAA field offices.

We found FAA inspectors were confused over how to conduct ATOS inspections,
unclear on the concepts of system safety and risk analysis, frustrated by a perceived
lack of management direction and support, and concerned that ATOS did not give
sufficient inspection coverage of air carrier operations. For example:

 • Seventy-one percent of the inspectors we interviewed considered ATOS training
   to be inadequate. This lack of training for the inspector workforce had adversely
   affected the quality of important data collected from ATOS inspections.
 • Eighty-three percent of the principal inspectors we interviewed considered ATOS
   data inadequate for shifting inspector resources to highest risk areas, a key goal of
   risk-based oversight.
 • Over 50 percent of the inspectors stated they did not understand ATOS inspection
   checklist questions.

We recommended that FAA strengthen national oversight and accountability to
ensure consistent field implementation of ATOS. FAA responded that it did not need
a separate national oversight function, because the newly appointed director of Flight
Standards (at Headquarters) would serve in that role and hold field offices
accountable for implementing ATOS effectively. However, this action still did not
improve consistency with ATOS inspections at field offices.

In June 2005, we again recommended that FAA strengthen its national oversight
and monitoring of ATOS—this time, through a data-centered approach. In this
review, we identified problems with the Agency’s ability to use the system to monitor
the changing aviation industry.

For example, FAA inspectors did not complete 26 percent of their planned
inspections. Over 50 percent of these were in areas where inspectors had identified
risks, as shown in table 2.




                                                                                     15
             Table 2. Inspectors Did Not Complete All Planned Inspections
                                of Identified Risk Areas

      FAA Office                            Inspections
                      Number       Total Number         Number (%) Not
                      Planned        (%) Not        Completed That Were in
                                    Completed        Identified Risk Areas
      United             617         259 (42%)           151 (58%)
      Delta              582         234 (40%)            49 (21%)
      American           614         168 (27%)            78 (46%)
      Northwest          834         147 (18%)           108 (74%)
      US Airways         894         130 (15%)          130 (100%)
      Total            3,541        938 (26%)            516 (55%)
Our recommendations to FAA included establishing policies and procedures to ensure
that national analyses and support groups provide stronger assistance to field offices.
This will help FAA to ensure that inspectors consistently assess risks and conduct
inspections at air carriers in a timely manner. However, FAA has not fully addressed
this recommendation.

Had FAA implemented our recommendations, it may have identified overdue
inspections at carriers, such as SWA, before serious safety problems developed. We
continue to believe that FAA should significantly strengthen its national ATOS
oversight, including a process to track field office inspections to ensure they are
conducted in a timely manner. By periodically checking ATOS data at each field
office, this process would serve as a “trigger” system to alert inspectors of overdue
inspections.

FAA Has Recently Begun a Review at SWA for AD Compliance
The events surrounding SWA underscore the need for FAA to make immediate and
comprehensive changes to its oversight of air carriers. On March 12, 2008, FAA
began an Air Carrier Evaluation Program (ACEP) review at SWA. ACEP is a team
review process for air carriers at the national, regional, and district office levels. This
is the first time FAA has used this evaluation process. This review uses the same
ATOS checklists that inspectors should have used to perform surveillance at SWA.
FAA has assigned 12 team members, independent of the CMO, to conduct the review
at SWA.




                                                                                        16
The objective of this evaluation is to:

 • Determine how SWA documents and tracks AD and maintenance inspections.

 • Evaluate SWA’s Continuous Analysis and Surveillance System (CASS) to
   determine if there are proper controls on all processes (CASS is the system air
   carriers use to monitor the effectiveness of their aircraft maintenance and
   inspection programs).

 • Verify that the air carrier complies with applicable regulations.

The ACEP team members were tasked with reviewing three key maintenance
programs at SWA: AD management, the Continuous Analysis and Surveillance
System, and the Maintenance Inspection Program. FAA selected these three
programs due to their interdependence in forming an effective maintenance program.

Early indications are that the local FAA office will have to work closely with the air
carrier to revamp its procedures in the areas being audited, as proper maintenance
procedures have never been documented in its manual system. The ACEP team was
tasked with completing this review by March 28, 2008.

After the SWA Events, FAA Initiated AD Reviews at Other Carriers
Because of SWA’s highly publicized AD non-compliances, FAA issued a notice on
March 13, 2008, requiring FAA inspectors to conduct a detailed review of AD
compliance at their respective air carriers. This review is scheduled to be completed
in two phases. During the first phase, FAA inspectors must review a sample of
10 ADs applicable to their air carriers’ fleets—this sample must include the AD that
SWA overflew, if appropriate. This phase was scheduled for completion on
March 28, 2008.

During the second phase, FAA inspectors must sample additional ADs in order to
review a total of 10 percent of all ADs applicable to the air carriers’ fleets. For
example, if an air carrier has 200 ADs applicable to its fleet, inspectors must
determine compliance with 20 ADs. The second phase of the review must be
completed by June 30, 2008.




                                                                                   17
FAA’s Internal Reviews Identified Problems, but FAA Did
Not Take Timely Corrective Actions
Our ongoing work at SWA and previous audit work at Northwest Airlines has
identified weaknesses in FAA’s processes for conducting internal reviews of safety
issues and ensuring appropriate corrective actions.

Although repeated reviews and investigations by other FAA offices identified
questionable practices by the PMI, they focused on the relationship between the PMI
and his manager rather than corrective actions.

 • On April 16, 2007, FAA’s Southwest Regional Office sent an independent review
   team (comprised of inspectors assigned to another carrier, but still within the FAA
   Southwest Region) to investigate the AD overflight. The team reported that SWA
   had operated the 47 planes in a known unairworthy condition and that the PMI
   condoned this operation. However, after this review, the Region did not take
   disciplinary action against the PMI; he was merely reassigned to another office.

 • On May 1, 2007, FAA’s Southwest Regional Office requested another review of
   the disclosure—this time by FAA’s Security and Hazardous Materials Division
   (SHMD). On July 12, 2007, the SHMD reported that SWA never ordered the
   planes grounded and that the PMI admitted he should not have encouraged the
   self-disclosure. FAA still did not use these results as basis for action against the
   PMI or to take action to review SWA’s self-disclosure to determine whether it was
   valid or if enforcement actions should be initiated.

 • On September 18, 2007, FAA’s Southwest Regional Office requested another
   review to supplement SHMD’s original review. FAA believed the first review did
   not provide enough information. The supplemental review provided a confession
   from the PMI that he did in fact knowingly permit SWA to continue flying the
   47 aircraft, which should have been grounded due to their non-compliance with
   the AD. The PMI stated to the review team,

        I should have grounded the affected aircraft and informed [regional
        management] for further guidance. I permitted unairworthy SWA aircraft to
        operate in revenue service, and I was wrong to do so. However, politically, I
        felt that grounding the SWA aircraft would have negative consequences for
        the FAA.

 • On October 10, 2007, FAA’s Southwest Regional Office examined the CMO’s
   record to determine if it had performed a follow up inspection of SWA’s self-
   disclosure and AD management. The review determined that the CMO had not
   performed inspections to ensure AD compliance or to ensure that the carrier was
   following its own AD compliance procedures.


                                                                                    18
 • On October 31, 2007, an inspector from another FAA office within the Southwest
   Region did a records review and determined that SWA had completed the required
   inspections for all affected aircraft. However, his review only examined
   documents provided by SWA. According to documents we reviewed, he did not
   examine the maintenance records to verify that these inspections were actually
   completed. We question why this review was not more thorough and why none of
   the previous FAA reviews attempted to verify the inspections, since SWA had
   reported the violation 7 months earlier.

FAA’s series of internal reviews found, as early as April 2007, that the PMI was
complicit in allowing SWA to continue flying aircraft in violation of the AD. Yet,
FAA did not attempt to determine the root cause of the safety issue, take action
against the PMI, nor take enforcement against the carrier until November 2007. This
is in stark contrast to the treatment of one of the whistleblowers and the CMO
manager who attempted to report the issues with the PMI’s overly collaborative
relationship with the air carrier.

The whistleblower was subjected to an FAA investigation based on a vague hotline
complaint shortly after he began reporting his concerns to management. According to
the CMO manager, he received the complaint from the PMI, who stated that a SWA
representative had submitted the complaint. The inspector was removed from his
oversight duties for 5 months while he was being investigated.

According to FAA officials, it is customary to remove an inspector from oversight
activities during an investigation. However, we noted that the PMI that had
knowingly permitted the overflight was never completely relieved of his duties. He
was merely transferred to another FAA office. The CMO manager was also
transferred to another FAA office, which was effectively a downgrade, and given
minimal responsibility because, according to FAA, he was not successfully dealing
with the issues occurring in the office.

While the whistleblowers in the SWA case are principally responsible for bringing the
egregious activities at the CMO to light, FAA failed to protect them from retaliation
by other FAA employees. For example, we found that one of the whistleblowers was
subjected to several instances of harassment, beginning in June 2007, in which his
papers and personal belongings were strewn about his desk and onto the floor,
insulting signs posted near or on his work space, and items on his desk and in his cube
were moved or rearranged. In February 2008, an implied death threat was delivered
to his home.

We have previously reported on incidents at another carrier where FAA focused on
discounting the validity of an inspector’s concerns rather than determining whether
there were safety issues that needed correction. In this case, the safety concerns were
valid, and FAA should have immediately acted to correct the problems.


                                                                                    19
Problems With FAA’s Internal Safety Reviews at Another Carrier
Our 2005 audit at Northwest Airlines identified weaknesses in FAA’s processes for
conducting internal reviews, ensuring appropriate corrective actions, and handling
employees who report safety concerns. At the request of former Senator Mark
Dayton, we conducted a review in 2005 of FAA’s handling of safety concerns at
Northwest Airlines. An FAA inspector for the carrier raised these concerns at the
start of a mechanics strike. Specifically, Northwest replaced approximately
4,400 mechanics on strike with 1,400 temporary mechanics and increased the use of
contract mechanics. The inspector was concerned that Northwest had not adequately
trained its replacement mechanics for their new responsibilities.

The inspector submitted his concerns to FAA in the form of a safety recommendation.
Northwest officials then complained to FAA that the complainant’s conduct was
interfering with Northwest operations. As with the whistleblower in the SWA case,
FAA managers reassigned the complainant to office duties and restricted him from
performing oversight on Northwest’s premises.

In response to the inspector’s concerns, FAA initiated an internal review to assess the
complainant’s allegations. However, the review team was not independent and did
not thoroughly investigate the complaints or ensure that the problems they identified
within FAA and at Northwest were corrected. Despite concerns expressed by the
complainant and our office, FAA’s review team included two representatives from the
regional office where the complainant was based, thus giving the appearance of bias.

Once on site, the team performed a very limited review. For example, in the first
2 months of the strike, FAA inspectors had identified 121 findings related to
replacement mechanics’ lack of knowledge or ability to properly complete
maintenance tasks and maintenance documentation. Even though the review team
was aware of these findings, they only reviewed mechanics’ training files. The team
did not observe replacement mechanics performing maintenance or examine the
121 findings.

FAA agreed to initiate a second review in response to our concerns about its first
review. This review was performed by a more independent team and validated some
of the complainant’s concerns regarding replacement mechanic training. Yet, FAA
did not use the results to ensure that the CMO for Northwest took action to resolve
identified problems. FAA instead informed the complainant that his concerns lacked
merit.

Even after FAA finalized its second report, we found no evidence that the report was
issued to the CMO or that FAA’s Office of Flight Standards Service planned to verify
that the findings and other inspector concerns would be addressed. In fact, even
though one of the findings in the second team’s report was that the CMO had not



                                                                                    20
acted on issues identified early in the strike, the team left it to the CMO to further
investigate and resolve these issues.

We recommended that FAA establish better internal review procedures to ensure
comprehensive, independent investigations of safety allegations and
recommendations. FAA agreed to establish a new internal review capability that
would allow it to perform independent assessments of safety allegations. FAA plans
to implement this capability by September 30, 2008. As currently proposed by FAA,
the reviews would be under the direction of FAA’s Flight Standards organization.
However, in light of the recent events at SWA—where, again, we have seen evidence
of poor FAA reviews of inspectors’ safety concerns—FAA should develop an
independent body outside of the FAA Aviation Safety organization to conduct these
reviews.

FAA Needs To Make Immediate and Comprehensive
Changes to Its Air Carrier Oversight Programs
The events surrounding SWA underscore the need for FAA to make immediate and
comprehensive changes to its oversight of air carriers. After the SWA events became
public last month, FAA proposed to fine SWA over $10 million. FAA has also
initiated reviews for AD compliance at SWA and other carriers. Our ongoing work
will examine the effectiveness of these reviews. Given the magnitude of problems
identified, FAA needs to take several critical actions to improve its oversight of all air
carriers and its use of regulatory partnership programs. We are recommending that
FAA:

 • establish an independent organization that can conduct thorough and timely
   investigations of safety issues identified by its inspector workforce.

 • periodically rotate its supervisory inspectors, such as the Principal Maintenance
   Inspector, to ensure reliable and objective oversight of air carriers.

 • revise current VDRP guidance to require FAA inspectors to (a) verify that air
   carriers take comprehensive actions to correct the underlying causes of violations
   identified through self-disclosure programs and (b) evaluate, before accepting a
   new report of a previously disclosed violation, whether the carrier developed and
   implemented a comprehensive solution.

 • implement a process for secondary review of airline self-disclosures before they
   are accepted and closed—these steps should not rest solely with one inspector.




                                                                                       21
 • revise its post-employment guidance to require a “cooling-off” period when an
   FAA inspector is hired at an air carrier he or she previously inspected.

 • implement a process to track field office inspections and alert the local, regional
   and Headquarters offices to overdue ATOS inspections.

 • develop a national review team that conducts periodic reviews of FAA’s oversight
   of air carriers.

We will continue to examine FAA’s oversight approach from a national perspective,
as requested by this Committee. We must ensure that these problems are not repeated
and that corrective actions are properly implemented. We will keep the Committee
apprised of our progress with this review, as well as other actions FAA can take to
enhance safety.

That concludes my statement, Mr. Chairman. I would be happy to address any
questions you or other Members of the Committee may have.




                                                                                   22
EXHIBIT A. AIRCRAFT THAT OVERFLEW AD-2004-18-06


                    No. of
                  Cycles Past   Inspection     Inspection      No. of Months      Crack
  Aircraft           Due           Due         Completed         Overdue         Found
                                                                               1" left, 1/4 "
              1         1,821      12-Jul-06       18-Mar-07        9              right
              2         1,623       5-Jul-06       19-Mar-07        9
              3         1,658      24-Jul-06       19-Mar-07        8
              4         1,561      14-Jul-06       17-Mar-07        9
              5         1,379      13-Jul-06       16-Mar-07        9
              6         1,765     21-Jun-06        19-Mar-07        9
              7         1,878     18-Jun-06        19-Mar-07        9
              8         1,453     30-Jun-06        16-Mar-07        9
              9         1,187     26-Jun-06        18-Mar-07        9
             10         1,347      8-Sep-06        19-Mar-07        7
             11         1,494     16-Aug-06        23-Mar-07        8
                                                                               Length not
             12         1,248     31-Aug-06        19-Mar-07        7           recorded
             13           120     28-Feb-07        17-Mar-07        1
             14         1,435     29-Aug-06        20-Mar-07        7
             15         1,520     20-Aug-06        19-Mar-07        7
             16         1,517     13-Aug-06        16-Mar-07        8
             17         1,444     26-Aug-06        18-Mar-07        7
             18         1,601     27-Jun-06        15-Mar-07        9
             19         1,315     18-Jun-06        17-Mar-07        9
             20         1,585     25-Jun-06        16-Mar-07        9
                                                                                4", 1" and
             21           720     11-Dec-06        18-Mar-07        4               2"
             22         1,081     27-Oct-06        20-Mar-07        5
                                                                               2" right, 1"
             23         1,753       2-Jul-06       19-Mar-07        9               left
                                                                               Length not
             24         1,682      1-Dec-06        27-Apr-07        5           recorded
             25         1,501      9-Nov-06        16-Mar-07        5
             26           289     21-Jan-07        18-Mar-07        2
             27           131      8-Feb-07        15-Mar-07        2
             28           229     21-Feb-07        23-Mar-07        1
             29           945      6-Nov-06        20-Mar-07        5
             30           726      7-Dec-06        16-Mar-07        4
             31         1,532       6-Jul-06       16-Mar-07        9
             32         1,765     27-Jun-06        23-Mar-07        9
             33         1,768     17-Jun-06        18-Mar-07        9
             34         1,796       7-Jul-06       16-Mar-07        9
             35         1,688       2-Jul-06       18-Mar-07        9
             36            45     12-Mar-07        21-Mar-07        1
             37         1,844      10-Jul-06       18-Mar-07        9
             38         1,831      12-Jul-06       21-Mar-07        9



Exhibit A. Aircraft That Overflew AD-2004-18-06                                       23
         39         1,742      25-Jul-06          20-Mar-07   8
         40         1,434      3-Sep-06           21-Mar-07   7
         41           718     11-Oct-06           18-Mar-07   6
         42         1,455      7-Sep-06           19-Mar-07   7
         43         1,666      2-Aug-06           19-Mar-07   8
         44         1,552      1-Aug-06           17-Mar-07   8
         45           634     17-Dec-06           20-Mar-07   4
         46         1,746     19-Jun-06           17-Mar-07   9
      Total:       61,224                          Average:   7




Exhibit A. Aircraft That Overflew AD-2004-18-06                   24
EXHIBIT B. MULTIPLE AD VIOLATIONS AT SWA

Southwest Airlines has been in non-compliance with four different Airworthiness
Directives eight times since December 2006. Each of the ADs apply to Boeing 737
aircraft. The ADs also specify that if any cracking is found during inspection of the
aircraft, repairs must be made prior to returning the aircraft to service. (All ADs were
self-disclosed by Southwest).

 • December 7, 2006—AD 2005-07-19: SWA failed to complete an inspection on
   the cargo doorway frame as required by an AD. This AD non-compliance affected
   one aircraft. The aircraft flew 30 flights while in non-compliance with the AD.

 • January 29, 2007—AD 2002-07-08: During a maintenance check, SWA
   maintenance personnel discovered six fuselage skin cracks on an aircraft. The
   aircraft was sent to a repair station for repair. Repair station personnel identified
   additional skin cracks and ultimately determined that the repetitive inspections on
   window frames and upper fuselage as required by the AD were not accomplished
   in October 2004, when they should have been. This AD non-compliance went
   undetected for 27 months.

 • March 14, 2007—AD 2004-18-06:                 SWA failed to complete repetitive
   inspections on upper and lower fuselage panels as required by AD. The carrier
   operated 46 aircraft in non-compliance with the AD for up to 9 months. SWA
   operated these aircraft for 61,224 flights in noncompliance with the AD.

 • February 21, 2008—AD 2005-07-19: SWA failed to complete inspections on
   cargo doorway frames as required by the AD. The carrier operated 27 aircraft in
   non-compliance with the AD. The investigation is ongoing on these aircraft, so
   SWA has not yet determined how many flights were operated.

 • February 22, 2008—AD 90-25-01: SWA failed to accomplish required
   inspections for corrosion prevention covering the entire aircraft. The carrier
   operated one aircraft in non-compliance with the AD on 1,378 flights.

 • February 22, 2008—AD 2004-18-06: SWA failed to accomplish repetitive
   inspections on the upper and lower fuselage skin for three aircraft as required by
   the AD. These three aircraft flew 3,922 flights while in non-compliance with the
   AD. This self disclosure was rejected by FAA.




Exhibit B. Multiple AD Violations at SWA                                             25
 • March 12, 2008—AD 2002-07-08: SWA failed to accomplish repetitive
   inspections on the window frames and upper fuselage for 38 aircraft as required by
   the AD. Six of these aircraft flew seven flights while in non-compliance with this
   AD. This self disclosure was rejected by FAA.

 • March 20, 2008—AD-2004-18-06: SWA discovered it failed to accomplish the
   required inspections for one aircraft. This aircraft flew in violation of the directive
   for 889 flights.

Details of Multiple ADs Overflown—Southwest Airlines
SWA overflew the following Airworthiness Directives.

AD 2002-07-08 Lap Joints of the Fuselage
The AD specifies inspection and repair procedures for aircraft where cracking of
certain fuselage lap joints were found, which could cause sudden decompression of
the airplane.

Requires repetitive inspections at prescribed cycle intervals depending on the
aircraft’s line number:

   • Low-frequency eddy current inspections of the fuselage crown area
   • High-frequency eddy current inspections of the aircraft window corners

AD 2004-18-06 Upper and Lower Skin Panels of the Fuselage
The AD specifies inspection and repair procedures for aircraft where cracking of
certain upper and lower skin panels of the fuselage, which could result in sudden
fracture and failure of the skin panels and consequent rapid decompression of the
airplane.

Requires repetitive inspections at prescribed cycle intervals depending on the
aircraft’s line number:

   • External detailed visual inspections and eddy current inspections of the aircraft
     crown area and lower lobe areas as well as other known areas of fuselage skin
     cracking

AD 2005-07-19 Cracks in the Fuselage Skin, Doubler, Bearstrap, and Frames
The AD was prompted by reports of multiple fatigue cracks in the fuselage skin and
bonded skin doubler, bearstrap, and doorway frames surrounding the forward and aft
cargo doors.




Exhibit B. Multiple AD Violations at SWA                                               26
Requires repetitive inspections at prescribed cycle intervals on certain series of
Boeing 737 aircraft:

   • Detailed and general visual inspections
   • Low, mid, and high-frequency eddy current inspections for cracks in the
     fuselage skin, bonded skin doubler, bearstrap, and doorway frames

Potential safety factors

   • Loss of structural integrity of the frames is likely if left unrepaired
   • Possible loss of cargo doors and consequent rapid decompression of the
     fuselage

AD 90-25-01 Corrosion Control
The AD requires inspection of B-737 aircraft in support of Aging Aircraft Corrosion
Prevention and Control Program




Exhibit B. Multiple AD Violations at SWA                                        27
The following pages contain textual versions of the graphs and charts found in this
document. These pages were not in the original document but have been added here
to accommodate assistive technology.
             Actions Needed To Strengthen FAA’s Safety Oversight
                       and Use of Partnership Programs

                      Section 508 Compliant Presentation

Figure 1. Timeline of the Southwest Airlines Disclosure and FAA Actions

   • March 14, 2007: Southwest Airlines discovers it overflew

   • March 15, 2007: Southwest Airlines representative notifies Principal
     Maintenance Inspector that 100 planes may have overflown.

   • March 19, 2007: Southwest Airlines self-discloses that 47 planes overflew
     Airworthiness Directive (Southwest Airlines later determined only 46 planes
     had violated the Airworthiness Directive).

   • March 22, 2007: During routine inspection at Chicago, whistleblower sees
     cracks on 1 of the reported planes—it had flown the day before.

   • March 23, 2007: Southwest Airlines states it has completed inspections for
     affected planes—five had cracks. (Note: Affected planes continue operating on
     1,451 flights from March 14, 2007, to March 23, 2007.)

   • April 16, 2007: Independent review (by inspectors for another office within
     the Federal Aviation Administration’s Southwest Region) concludes that
     Southwest Airlines operated 47 planes in known unairworthy condition and
     that the Principal Maintenance Inspector condoned this. No action taken
     against the Principal Maintenance Inspector.

   • May 1, 2007: The Federal Aviation Administration’s Southwest Region
     requests the Federal Aviation Administration’s Security and Hazardous
     Materials Division to review the Southwest Airlines disclosure.

   • July 12, 2007: Security and Hazardous Materials Division reports that
     Southwest Airlines stated that the Principal Maintenance Inspector never
     ordered the planes grounded and that the Principal Maintenance Inspector
     admitted he shouldn’t have encouraged the self-disclosure.

   • September 18, 2007: The Federal Aviation Administration’s Southwest
     Region requests a second review from the Security and Hazardous Materials
     Division.

   • October 2, 2007: Security and Hazardous Materials Division second review
     reports that the Principal Maintenance Inspector admitted he should have
      grounded planes but chose to avoid negative affect on FAA (results of this
      review spark February 2008 Committee request to the Office of Inspector
      General).

   • November 16, 2007: The Federal Aviation Administration initiates
     enforcement action.

Figure 2. Eight Southwest Airlines Aging Aircraft Airworthiness Directive
Violations

   • December 7, 2006: AD-2005-07-19: Cargo door. One plane in violation on 30
     flights.

   • January 29, 2007: AD-2002-07-08: Windows and upper fuselage. One plane
     flew in violation for 27 months.

   • March 19, 2007: AD-2004-18-06: Upper and lower fuselage panels. Forty-
     six planes in violation on 61,224 flights for 9 months.

   • February 21, 2008: AD-2005-07-19: Cargo door. Twenty-seven planes in
     violation.

   • February 22, 2008: AD-2004-18-06: Upper and lower fuselage panels. Three
     planes in violation on 3,922 flights.

   • February 22, 2008: AD-90-25-01: Corrosion prevention; inspections to cover
     entire plane. One plane in violation on 1,378 flights.

   • March 12, 2008: AD-2002-07-08: Windows and upper fuselage. Thirty-eight
     planes in violation.

   • March 20, 2008: AD-2004-18-06: Upper and lower fuselage panels. One
     plane in violation on 889 flights.

Figure 3. Key Reviews and Events at the Certificate Management Office for
Southwest Airlines Showing Overly Collaborative Relationship

   • October 2005: Review finds 1 questionable self disclosure and identifies
     conflicts between Principal Maintenance Inspector and manager that have
     “detrimental” impact on office. No actions taken.

   • November 2005: Office manager requests Region to review his finding that
     the Principal Maintenance Inspector allowed Southwest Airlines to change its
     maintenance program without Federal Aviation Administration approval for at
     least 2 years.
   • December 2005: Review finds improper carrier notifications and concludes
     inspectors were directed to lessen penalties against Southwest Airlines. No
     actions taken.

   • June 2006: Review of office environment reports “tense” relationship between
     Principal Maintenance Inspector and manager.

   • September 2006: Former Federal Aviation Administration inspector of
     Southwest Airlines maintenance becomes a Southwest Airlines manager—
     manages Airworthiness Directive and self-disclosure programs/liaisons
     between Federal Aviation Administration and Southwest Airlines.

   • April 2007: Follow-up review of office environment reports “worsened”
     condition. Review also finds there is an effort by the Principal Maintenance
     Inspector to lessen enforcement actions.

Table 1. Safety Inspection Activity - October 1, 2000 to March 15, 2007
(Note: 21 inspections not completed as of March 15, 2007—the date that SWA verbally
notified FAA of potential AD overflight.
Number                         Element                 Date of Last   Date Inspection    No. of Months
                                                       Inspection*       Was Due         Past Due as of
                                                                                         March 15, 2007

                                                      Date of Last    Date Inspection   Number. of
                                                      Inspection :    was due:          Months Past Due
                                                      10/1/1999**     9/30/2004         as of March 15,
   1     AD Management                                                                  2007: 90
                                                      Date of Last    Date Inspection   Number. of
                                                      Inspection :    was due: 6/3/06   Months Past Due
                                                      6/4/01                            as of March 15,
   2     General Maintenance Manual/Equivalent                                          2007: 69
                                                      Date of Last    Date Inspection   Number. of
                                                      Inspection :    was due:          Months Past Due
                                                      11/23/01        11/22/06          as of March 15,
   3     Continuous Analysis and Surveillance (CAS)                                     2007: 64
                                                      Date of Last    Date Inspection   Number. of
                                                      Inspection :    was due:          Months Past Due
                                                      1/18/02         1/17/07           as of March 15,
   4     Engineering/Major Repairs and Alterations                                      2007:62
                                                      Date of Last    Date Inspection   Number. of
                                                      Inspection :    was due:          Months Past Due
                                                      1/25/02         1/24/07           as of March 15,
   5     Maintenance Log/Recording Requirements                                         2007:62
                                                      Date of Last    Date Inspection   Number. of
                                                      Inspection :    was due:          Months Past Due
                                                      2/1/02          1/31/07           as of March 15,
   6     Reliability Program                                                            2007: 61
                                                      Date of Last    Date Inspection   Number. of
                                                      Inspection :    was due: 3/3/07   Months Past Due
                                                      3/4/02                            as of March 15,
   7     Airworthiness Release/Logbook Entry                                            2007: 60
                                                      Date of Last    Date Inspection   Number. of
   8     RII Training Requirements                    Inspection :    was due:          Months Past Due
                                                          none              9/30/05           as of March 15,
                                                                                              2007: 80
                                                          Date of Last      Date Inspection   Number. of
                                                          Inspection :      was due:          Months Past Due
                                                          none              9/30/05           as of March 15,
   9      Appropriate Operational Equipment                                                   2007: 80
                                                          Date of Last      Date Inspection   Number. of
                                                          Inspection :      was due:          Months Past Due
                                                          none              9/30/05           as of March 15,
  10      Major Repairs and Alterations Records                                               2007: 80
                                                          Date of Last      Date Inspection   Number. of
                                                          Inspection :      was due:          Months Past Due
                                                          none              9/30/05           as of March 15,
  11      Maintenance Facility/Main Base                                                      2007: 80
                                                          Date of Last      Date Inspection   Number. of
                                                          Inspection :      was due:          Months Past Due
                                                          none              9/30/05           as of March 15,
  12      Weight and Balance                                                                  2007: 80
                                                          Date of Last      Date Inspection   Number. of
                                                          Inspection :      was due:          Months Past Due
                                                          none              9/30/05           as of March 15,
  13      Manual Currency                                                                     2007: 80
                                                          Date of Last      Date Inspection   Number. of
                                                          Inspection :      was due:          Months Past Due
                                                          none              9/30/05           as of March 15,
  14      Distribution (Manuals)                                                              2007: 80
                                                          Date of Last      Date Inspection   Number. of
                                                          Inspection :      was due:          Months Past Due
                                                          none              9/30/05           as of March 15,
  15      Availability (Manuals)                                                              2007: 80
                                                          Date of Last      Date Inspection   Number. of
                                                          Inspection :      was due:          Months Past Due
                                                          none              9/30/05           as of March 15,
  16      Supplemental Operations Manual Requirements                                         2007: 80
                                                          Date of Last      Date Inspection   Number. of
                                                          Inspection :      was due:          Months Past Due
                                                          none              9/30/05           as of March 15,
  17      Content Consistency Across Manual                                                   2007: 80
                                                          Date of Last      Date Inspection   Number. of
                                                          Inspection :      was due:          Months Past Due
                                                          none              9/30/05           as of March 15,
  18      Maintenance Certificate Requirements                                                2007: 80
                                                          Date of Last      Date Inspection   Number. of
                                                          Inspection :      was due:          Months Past Due
                                                          none              9/30/05           as of March 15,
  19      Privileges Airframe and Powerplant                                                  2007: 80
                                                          Date of Last      Date Inspection   Number. of
                                                          Inspection :      was due:          Months Past Due
                                                          none              9/30/05           as of March 15,
  20      RVSM Authorization                                                                  2007: 80
                                                                            Date Inspection   Number. of
                                                          Date of Last
                                                                            was due:          Months Past Due
                                                          Inspection :
                                                                            9/30/05           as of March 15,
                                                          none
  21      Director of Safety                                                                  2007: 80
Source: FAA’s database for ATOS
Inspection is considered overdue if not completed within 5 years from last inspection date.
*If no date was available, then October 1, 2000, was used to determine inspection status.
**Actual month/day unknown
Table 2. Inspectors Did Not Complete All Planned Inspections of Identified Risk Areas


    FAA Office       Number        Total Number            Number (%) Not
                     Planned          (%) Not          Completed That Were in
                                     Completed          Identified Risk Areas
    United        Inspections     Not                 Inspections not
                  planned: 617    completed:          completed in
                                  259 (42%)           identified risk
                                                      areas: 151
                                                      (58%)
    Delta         Inspections     Not                 Inspections not
                  planned:        completed:          completed in
                  582             234 (40%)           identified risk
                                                      areas: 49 (21%)
    American      Inspections     Not                 Inspections not
                  planned:        completed:          completed in
                  614             168 (27%)           identified risk
                                                      areas: 78 (46%)
    Northwest     Inspections     Not                 Inspections not
                  planned:        completed:          completed in
                  834             147 (18%)           identified risk
                                                      areas: 108 (74%)
    US Airways Inspections        Not                 Inspections not
               planned:           completed:          completed in
               894                130 (15%)           identified risk
                                                      areas: 130
                                                      (100%)
    Total         Inspections     Not                 Inspections not
                  planned:        completed:          completed in
                  3,541           938 (26%)           identified risk
                                                      areas: 516
                                                      (55%)
Exhibit A. Aircraft That Overflew AD-2004-18-06

                 Cycles Past      Inspection       Inspection       Months
  Aircraft           Due             Due           Completed       Overdue     Crack Found
                    Number of   Inspection       Inspection      Number of    Crack found: 1
                  Cycles past   Due: 12-Jul-     Completed:      Months       inch left, 1/4
    Aircraft 1     due: 1,821   06               18-Mar-07       overdue: 9   inch right
                    Number of   Inspection       Inspection      Number of    N/A
                  Cycles past   Due: 5-Jul-06    Completed:19-   Months
    Aircraft 2     due: 1,623                    Mar-07          overdue:9
                    Number of   Inspection       Inspection      Number of    N/A
                  Cycles past   Due: 24-Jul-     Completed:19-   Months
    Aircraft 3     due: 1,658   06               Mar-07          overdue:8
                    Number of   Inspection       Inspection      Number of    N/A
                  Cycles past   Due: 14-Jul-     Completed:17-   Months
    Aircraft 4     due: 1,561   06               Mar-07          overdue:9
                    Number of   Inspection       Inspection      Number of    N/A
                  Cycles past   Due: 13-Jul-     Completed:16-   Months
    Aircraft 5     due: 1,379   06               Mar-07          overdue:9
                    Number of   Inspection       Inspection      Number of    N/A
                  Cycles past   Due: 21-Jun-     Completed:19-   Months
    Aircraft 6     due: 1,765   06               Mar-07          overdue:9
                    Number of   Inspection       Inspection      Number of    N/A
                  Cycles past   Due: 18-Jun-     Completed:19-   Months
    Aircraft 7     due: 1,878   06               Mar-07          overdue:9
                    Number of   Inspection       Inspection      Number of    N/A
                  Cycles past   Due: 30-Jun- I   Completed:16-   Months
    Aircraft 8     due: 1,453   06               Mar-07          overdue:9
                    Number of   Inspection       Inspection      Number of    N/A
                  Cycles past   Due: 26-Jun-     Completed:18-   Months
    Aircraft 9     due: 1,187   06               Mar-07          overdue:9
                    Number of   Inspection       Inspection      Number of    N/A
                  Cycles past   Due: 8-Sep-06    Completed:19-   Months
   Aircraft 10     due: 1,347                    Mar-07          overdue:7
                    Number of   Inspection       Inspection      Number of    N/A
                  Cycles past   Due: 16-Aug-:    Completed:23-   Months
   Aircraft 11     due: 1,494   06               Mar-07          overdue:8
                    Number of   Inspection       Inspection      Number of
                  Cycles past   Due: 31-Aug-     Completed:19-   Months       Crack Length
   Aircraft 12     due: 1,248   I: 06            Mar-07          overdue:7    not recorded
                    Number of   Inspection       Inspection      Number of    N/A
                  Cycles past   Due: 28-Feb-     Completed:17-   Months
   Aircraft 13       due: 120   07               Mar-07          overdue:1
                    Number of   Inspection       Inspection      Number of    N/A
                  Cycles past   Due: 29-Aug-     Completed:20-   Months
   Aircraft 14     due: 1,435   06               Mar-07          overdue:7
                    Number of   Inspection       Inspection      Number of    N/A
                  Cycles past   Due: 20-Aug-     Completed:19-   Months
   Aircraft 15     due: 1,520   06               Mar-07          overdue:7
                    Number of   Inspection       Inspection      Number of    N/A
                  Cycles past   Due: 13-Aug-     Completed:16-   Months
   Aircraft 16     due: 1,517   06               Mar-07          overdue:8
                    Number of   Inspection       Inspection      Number of    N/A
                  Cycles past   Due: 26-Aug-     Completed:18-   Months
   Aircraft 17     due: 1,444   06               Mar-07          overdue:7
               Number of    Inspection      Inspection      Number of   N/A
              Cycles past   Due: 27-Jun-    Completed:15-   Months
Aircraft 18    due: 1,601   06              Mar-07          overdue:9
               Number of    Inspection      Inspection      Number of   N/A
              Cycles past   Due: 18-Jun-    Completed:17-   Months
Aircraft 19    due: 1,315   06              Mar-07          overdue:9
               Number of    Inspection      Inspection      Number of   N/A
              Cycles past   Due: 25-Jun-    Completed:16-   Months
Aircraft 20    due: 1,585   06              Mar-07          overdue:9
               Number of    Inspection      Inspection      Number of   Crack found:
              Cycles past   Due: 11-Dec-    Completed:18-   Months      4 inch, 1 inch,
Aircraft 21     due: 720    06              Mar-07          overdue:4   and 2 inch
               Number of    Inspection      Inspection      Number of   N/A
              Cycles past   Due: 27-Oct-    Completed:20-   Months
Aircraft 22    due: 1,081   06              Mar-07          overdue:5
               Number of    Inspection      Inspection      Number of
              Cycles past   Due: 2-Jul-06   Completed:19-   Months      Crack found:
Aircraft 23    due: 1,753                   Mar-07          overdue:9   2" right, 1" left
               Number of    Inspection      Inspection      Number of
              Cycles past   Due: 1-Dec-06   Completed:27-   Months      Crack Length
Aircraft 24    due: 1,682                   Apr-07          overdue:5   not recorded
               Number of    Inspection      Inspection      Number of   N/A
              Cycles past   Due: 9-Nov-06   Completed:16-   Months
Aircraft 25    due: 1,501                   Mar-07          overdue:5
               Number of    Inspection      Inspection      Number of   N/A
              Cycles past   Due: 21-Jan     Completed:18-   Months
Aircraft 26     due: 289    07              Mar-07          overdue:2
               Number of    Inspection      Inspection      Number of   N/A
              Cycles past   Due: 8-Feb-07   Completed:15-   Months
Aircraft 27     due: 131                    Mar-07          overdue:2
               Number of    Inspection      Inspection      Number of   N/A
              Cycles past   Due: 21-Feb-    Completed:23-   Months
Aircraft 28     due: 229    07              Mar-07          overdue:1
               Number of    Inspection      Inspection      Number of   N/A
              Cycles past   Due: 6-Nov-06   Completed:20-   Months
Aircraft 29     due: 945                    Mar-07          overdue:5
               Number of    Inspection      Inspection      Number of   N/A
              Cycles past   Due: 7-Dec-06   Completed:16-   Months
Aircraft 30     due: 726                    Mar-07          overdue:4
               Number of    Inspection      Inspection      Number of   N/A
              Cycles past   Due: 6-Jul-06   Completed:16-   Months
Aircraft 31    due: 1,532                   Mar-07          overdue:9
               Number of    Inspection      Inspection      Number of   N/A
              Cycles past   Due: 27-Jun-    Completed:23-   Months
Aircraft 32    due: 1,765   06              Mar-07          overdue:9
               Number of    Inspection      Inspection      Number of   N/A
              Cycles past   Due: 17-Jun-    Completed:18-   Months
Aircraft 33    due: 1,768   06              Mar-07          overdue:9
               Number of    Inspection      Inspection      Number of   N/A
              Cycles past   Due: 7-Jul-06   Completed:16-   Months
Aircraft 34    due: 1,796                   Mar-07          overdue:9
               Number of    Inspection      Inspection      Number of   N/A
              Cycles past   Due: 2-Jul-06   Completed:18-   Months
Aircraft 35    due: 1,688                   Mar-07          overdue:9
                 Number of     Inspection      Inspection      Number of    N/A
                Cycles past    Due: 12-Mar-    Completed:21-   Months
Aircraft 36        due: 45     07              Mar-07          overdue:1
                 Number of     Inspection      Inspection      Number of    N/A
                Cycles past    Due: 10-Jul-    Completed:18-   Months
Aircraft 37      due: 1,844    06              Mar-07          overdue:9
                 Number of     Inspection      Inspection      Number of    N/A
                Cycles past    Due: 12-Jul-    Completed:21-   Months
Aircraft 38      due: 1,831    06              Mar-07          overdue:9
                 Number of     Inspection      Inspection      Number of    N/A
                Cycles past    Due: 25-Jul-    Completed:20-   Months
Aircraft 39      due: 1,742    06              Mar-07          overdue:8
                 Number of     Inspection      Inspection      Number of    N/A
                Cycles past    Due: 3-Sep-06   Completed:21-   Months
Aircraft 40      due: 1,434                    Mar-07          overdue:7
                 Number of     Inspection      Inspection      Number of    N/A
                Cycles past    Due: 11-Oct-    Completed:18-   Months
Aircraft 41       due: 718     06              Mar-07          overdue:6
                 Number of     Inspection      Inspection      Number of    N/A
                Cycles past    Due: 7-Sep-06   Completed:19-   Months
Aircraft 42      due: 1,455                    Mar-07          overdue:7
                 Number of     Inspection      Inspection      Number of    N/A
                Cycles past    Due: 2-Aug-06   Completed:19-   Months
Aircraft 43      due: 1,666                    Mar-07          overdue:8
                 Number of     Inspection      Inspection      Number of    N/A
                Cycles past    Due: 1-Aug-06   Completed:17-   Months
Aircraft 44      due: 1,552                    Mar-07          overdue:8
                 Number of     Inspection      Inspection      Number of    N/A
                Cycles past    Due: 17-Dec-    Completed:20-   Months
Aircraft 45       due: 634     06              Mar-07          overdue:4
                 Number of     Inspection      Inspection      Number of    N/A
                Cycles past    Due: 19-Jul-    Completed:17-   Months
Aircraft 46      due: 1,746    06              Mar-07          overdue:9
                               N/A             N/A             Average      N/A
              Total number                                     number of
              of cycles past                                   months
      N/A      due: 61,224                                     overdue: 7
